No. 19-832
In the

Supreme Court of the United States
Apple, Inc.,
Petitioner,
v.
VirnetX Inc., et al.,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

BRIEF OF THE R STREET INSTITUTE, THE
ELECTRONIC FRONTIER FOUNDATION, AND
ENGINE ADVOCACY AS AMICI CURIAE IN
SUPPORT OF THE PETITION

Charles Duan
Counsel of Record
R Street Institute
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amici curiae

TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

Certiorari Should Be Granted on the First Question
Presented . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. For Decades, the Federal Circuit Has Failed to
Articulate Rules on How to Apportion Reasonable Royalties Based on Past Licenses . . . . . . . 4
B.

Numerous Industries Involve Complex Multifunction Products and Services Incompatible
with Nonapportionment of Patent Royalties . . . 8
1.

Computer Devices . . . . . . . . . . . . . . . . 9

2.

Software . . . . . . . . . . . . . . . . . . . . . 10

3.

Automotive Industry . . . . . . . . . . . . . . 10

4.

Genetic Testing . . . . . . . . . . . . . . . . . 12

5.

Pharmaceuticals and Biomedical Research . . . . . . . . . . . . . . . . . . . . . . . 13

C.

The Federal Circuit’s Decision Exacerbates Ongoing Problems with Abusive Gamesmanship in
Patent Licensing . . . . . . . . . . . . . . . . . . . 15

D.

Excessive Royalties Resulting from Overreliance on Past Licenses Will Deter Innovation . . 19

II. Certiorari Should Be Granted on the Second Question Presented Because the Question Is Likely to
Recur Frequently . . . . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . 24

(i)

TABLE OF AUTHORITIES
Cases
ActiveVideo Networks, Inc.
v. Verizon Communications, Inc.,
694 F.3d 1312 (Fed. Cir. 2012) . . . . . . . . . . . . . . . 6
Apple Inc. v. Motorola, Inc.,
757 F.3d 1286 (Fed. Cir. 2014) . . . . . . . . . . . . . . . 6
Ass’n for Molecular Pathology v. Myriad Genetics, Inc.,
569 U.S. 576 (2013) . . . . . . . . . . . . . . . . . . . . . . 12
AstraZeneca AB v. Apotex Corp.,
782 F.3d 1324 (Fed. Circ. 2015) . . . . . . . . . . . . . 13–14
Commonwealth Scientific & Industrial Research
Organisation v. Cisco Systems, Inc.,
809 F.3d 1295 (Fed. Cir. 2015) . . . . . . . . . . . . . . 6, 9
Cornell University v. Hewlett-Packard Co.,
609 F. Supp. 2d 279 (N.D.N.Y. 2009) . . . . . . . . . . . . 9
Deere & Co. v. International Harvester Co.,
710 F.2d 1551 (Fed. Cir. 1983) . . . . . . . . . . . . . . . 17
eBay Inc. v. MercExchange, LLC,
547 U.S. 388 (2006) . . . . . . . . . . . . . . . . . . . . . . 22
Elbit Systems Land & C4I Ltd.
v. Hughes Network Systems, LLC,
927 F.3d 1292 (Fed. Cir. 2019) . . . . . . . . . . . . . . . 6
Ericsson, Inc. v. D-Link Systems, Inc.,
773 F.3d 1201 (Fed. Cir. 2014) . . . . . . . . . . . . . . 5–6
Ericsson, Inc. v. InterDigital Communications Corp.,
418 F.3d 1217 (Fed. Cir. 2005) . . . . . . . . . . . . . 17–18
Evans v. Jeff D.,
475 U.S. 717 (1986) . . . . . . . . . . . . . . . . . . . . . . 16

(ii)

(iii)
Federal Trade Commission v. Qualcomm Inc.,
No. 19-16122 (9th Cir. to be argued Feb. 13, 2020) . . . . 11
Finjan, Inc. v. Secure Computing Corp.,
626 F.3d 1197 (Fed. Cir. 2010) . . . . . . . . . . . . . . 5–6
Garretson v. Clark,
111 U.S. 120 (1884) . . . . . . . . . . . . . . . . . . 6, 13, 21
Georgia-Pacific Corp. v. U.S. Plywood Corp.,
318 F. Supp. 1116 (S.D.N.Y. 1970) . . . . . . . . . . . . 5, 7
Impression Products, Inc.
v. Lexmark International, Inc.,
137 S. Ct. 1523 (2017) . . . . . . . . . . . . . . . . . . . . 11
LaserDynamics, Inc. v. Quanta Computer, Inc.,
694 F.3d 51 (Fed. Cir. 2012) . . . . . . . . . . . . . . . . . 6
Lucent Technologies, Inc. v. Gateway, Inc.,
580 F.3d 1301 (2009) . . . . . . . . . . . . . . . . . . . 6, 10
Microsoft Corp. v. Motorola, Inc.,
795 F.3d 1024 (9th Cir. 2015) . . . . . . . . . . . . . . . . 17
Microsoft Corp. v. Motorola, Inc.,
No. 10-cv-1823 (W.D. Wash. Apr. 25, 2013) (findings
of fact and conclusions of law) . . . . . . . . . . . . . . . 17
Precision Instrument Manufacturing Co.
v. Automotive Maintenance Machinery Co.,
324 U.S. 806 (1945) . . . . . . . . . . . . . . . . . . . . . . 21
Quanta Computer, Inc. v. LG Electronics, Inc.,
553 U.S. 617 (2008) . . . . . . . . . . . . . . . . . . . . . . 9
ResQNet.com, Inc. v. Lansa, Inc.,
594 F.3d 860 (Fed. Cir. 2010) (per curiam) . . . . . . . . 17
Rude v. Westcott,
130 U.S. 152 (1889) . . . . . . . . . . . . . . . . . . . . . . 16

(iv)
Slimfold Manufacturing Co., Inc.
v. Kinkead Industries, Inc.,
932 F.2d 1453 (Fed. Cir. 1991) . . . . . . . . . . . . . . . 20
Spansion, Inc. v. International Trade Commission,
629 F.3d 1331 (Fed. Cir. 2010) . . . . . . . . . . . . . . . 22
State Industries, Inc. v. A.O. Smith Corp.,
751 F.2d 1226 (Fed. Cir. 1985) . . . . . . . . . . . . . . . 20
Transocean Offshore Deepwater Drilling, Inc.
v. Maersk Drilling USA, Inc.,
699 F.3d 1340 (Fed. Cir. 2012) . . . . . . . . . . . . . . . 18
Uniloc USA, Inc. v. Microsoft Corp.,
632 F.3d 1292 (Fed. Cir. 2011) . . . . . . . . . . . . . . . 7
VirnetX, Inc. v. Cisco Systems, Inc.,
767 F.3d 1308 (Fed. Cir. 2014) . . . . . . . . . . . . . . 7–8
Whitserve, LLC v. Computer Packages, Inc.,
694 F.3d 10 (Fed. Cir. 2012) . . . . . . . . . . . . . . . . . 17
Wordtech Systems, Inc.
v. Integrated Networks Solutions, Inc.,
609 F.3d 1308 (Fed. Cir. 2010) . . . . . . . . . . . . . . . 6
Constitutional Provision
U.S. Const. art. I, § 8, cl. 8 . . . . . . . . . . . . . . . . . . . 21
Statutes
35 U.S.C. § 316(a)(11) . . . . . . . . . . . . . . . . . . . . . . 22
Tariff Act of 1930 § 337(a)(1)(B),
19 U.S.C. § 1337 (2012) . . . . . . . . . . . . . . . . . . . 22
——— § 337(a)(2), (c) (2012) . . . . . . . . . . . . . . . 22

(v)
Other Sources
Jonathan Bach & Mike Colias, Is It a Car or a Computer?,
Wall St. J. (Sept. 19, 2016), https://www.wsj.com/
articles/is-it-a-car-or-a-computer-1474251122 . . . . . . 11
Brief of Association of Global Automakers et al., Fed.
Trade Comm’n v. Qualcomm Inc., No. 19-16122 (9th
Cir. Nov. 29, 2019) . . . . . . . . . . . . . . . . . . . . . . 11
Subhashini Chandrasekharan & Robert Cook-Deegan,
Gene Patents and Personalized Medicine—What
Lies Ahead?, 1 Genome Med. 92 (2009) . . . . . . . . . . 12
Bernard Chao, Implementing Apportionment, 2019
Patently-O Pat. L.J. 20 (2019) . . . . . . . . . . . . . . 4, 8
Colleen Chien, Patently Protectionist? An Empirical
Analysis of Patent Cases at the International Trade
Commission, 50 Wm. and Mary L. Rev. 63 (2008) . . . . 22
Thomas F. Cotter, Four Principles for Calculating
Reasonable Royalties in Patent Infringement
Litigation, 72 Santa Clara Computer & High Tech.
L.J. 725 (2011) . . . . . . . . . . . . . . . . . . . . . . . . 20
Paige Winfield Cunningham, The Supreme Court
Banned Patenting Genes. But Congress Might
Change That, Wash. Post (June 3, 2019), https://www.
washingtonpost.com/news/powerpost/paloma/thehealth-202/2019/06/03/the-health-202-the-supremecourt-banned-patenting-genes-but-congress-mightchange-that/5cf1987f1ad2e52231e8e91b/ . . . . . . . . . 12
Roy J. Epstein & Alan J. Marcus, Economic Analysis
of the Reasonable Royalty: Simplification and
Extension of the Georgia-Pacific Factors, 85 J. Pat.
& Trademark Off. Soc’y 555 (2003) . . . . . . . . . . . . 7

(vi)
Fed. Trade Comm’n, The Evolving IP Marketplace:
Aligning Patent Notice and Remedies with Competition (2011), http://www.ftc.gov/os/2011/03/110307
patentreport.pdf . . . . . . . . . . . . . . . . . . . . . 5, 20
Eric J. Fues, The Interplay Between the ITC and the
PTAB—More Progress Needed, Bloomberg L. (Jan.
22, 2019), https://news.bloomberglaw.com/ip-law/
insight-the-interplay-between-the-itc-and-the-ptabmore-progress-needed . . . . . . . . . . . . . . . . . . . 23
Michael A. Heller & Rebecca S. Eisenberg, Can Patents
Deter Innovation? The Anticommons in Biomedical
Research, 280 Science 698 (1998) . . . . . . . . . . . . . 14
Erik Hovenkamp & Jonathan Masur, How Patent
Damages Skew Licensing Markets, 36 Rev. Litig.
379 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Innovation Policy and the Economy (Adam B. Jaffe et
al. eds., 2007) . . . . . . . . . . . . . . . . . . . . . . . . . 20
Inter Partes Review and the ITC: The Benefits and
Risks of Filing IPR on Patents Asserted in an ITC
Investigation, Quinn Emanuel Bus. Litig. Rep., Mar.
2015, at 1, https://www.quinnemanuel.com/media/
1124972/march-2015-newsletter.pdf . . . . . . . . . . . . 23
John C. Jarosz & Michael J. Chapman, The Hypothetical
Negotiation and Reasonable Royalty Damages: The
Tail Wagging the Dog, 16 Stan. Tech. L. Rev. 769
(2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Shefali Kapadia, Moving Parts: How the Automotive
Industry Is Transforming, Supply Chain Dive
(Feb. 20, 2018), https://www.supplychaindive.com/
news/moving-parts-how-the-automotive-industry-istransforming/516459/ . . . . . . . . . . . . . . . . . . . . 11

(vii)
Layne S. Keele, Res“Q”ing Patent Infringement
Damages After Resqnet: The Dangers of Litigation
Licenses as Evidence of a Reasonable Royalty, 20
Tex. Intell. Prop. L.J. 181 (2012) . . . . . . . . . . . . 15–16
Brian J. Love, Patentee Overcompensation and the
Entire Market Value Rule, 60 Stan. L. Rev. 263
(2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19–20
Suzanne Michel, Bargaining for RAND Royalties in the
Shadow of Patent Remedies Law, 77 Antitrust L.J.
889 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Brian Pandya, Why Pay More? Using Patent Settlements to Calculate Reasonable Royalty Rates,
Corp. Couns. (May 31, 2010), https://www.law.com/
corpcounsel/almID/1202458974224/ . . . . . . . . . . . . 16
Christopher B. Seaman, Reconsidering the GeorgiaPacific Standard for Reasonable Royalty Patent
Damages, 2010 BYU L. Rev. 1661 (2010) . . . . . . . . . 7
Carl Shapiro, Patent Reform: Aligning Reward and
Contribution, in 8 Innovation Policy and the
Economy 111 (Adam B. Jaffe et al. eds., 2007) . . . . . . 20
U.S. Int’l Trade Comm’n, Annual Performance Plan,
FY 2019–2020 and Annual Performance Report, FY
2018 (2019), https://www.usitc.gov/documents/usitc_
fy_2019-2020_app_fy_2018_apr.pdf . . . . . . . . . . . . 22
Dan Vorhaus & John Conley, Whole-Genome Sequencing
and Gene Patents Coexist (For Now), Genomics L.
Rep. (renamed Privacy Rep.) (Aug. 11, 2009), https://
theprivacyreport.com/2009/08/11/whole-genomesequencing-and-gene-patents-coexist-for-now/ . . . . . 12

INTEREST OF AMICI CURIAE
The R Street Institute1 is a nonprofit, nonpartisan
public-policy research organization. R Street’s mission
is to engage in policy research and educational outreach
that promotes free markets as well as limited yet effective government, including properly calibrated legal and
regulatory frameworks that support economic growth
and individual liberty.
The Electronic Frontier Foundation is a nonprofit
civil liberties organization that has worked for more than
25 years to protect innovation, free expression, and civil
liberties in the digital world. EFF and its more than
34,000 active donors have a powerful interest in ensuring
that intellectual property laws serve the general public
by promoting more creativity and innovation than they
deter.
Engine Advocacy is a nonprofit technology policy, research, and advocacy organization that bridges the gap
between policymakers and startups, working with government and a community of high-technology, growthoriented startups across the nation to support the development of technology entrepreneurship. Part of amplifying startup concerns includes highlighting the unique
challenges small startups face when confronted with abusive, and typically opaque, patent litigation.

1

Pursuant to Supreme Court Rule 37.2(a), all parties received appropriate notice of and consented to the filing of this brief. Pursuant
to Rule 37.6, no counsel for a party authored this brief in whole or
in part, and no counsel or party made a monetary contribution intended to fund the preparation or submission of the brief. No person
or entity, other than amici, their members, or their counsel, made a
monetary contribution to the preparation or submission of this brief.

1

SUMMARY OF ARGUMENT
Certiorari is warranted on both questions presented,
because they are questions of law that the Federal Circuit
has consistently failed to answer, because lack of clarity
impacts a wide range of important domestic industries,
and because the lack of clarity is ripe for abusive exploitation.
I. Certiorari should be granted to settle the Federal
Circuit’s decades-long failure to articulate how to apportion damages when the patent owner seeks to prove a
reasonable royalty based on prior licenses. The appellate court currently permits a broad range of dissimilar
licenses as admissible evidence. Though it has occasionally said that the dissimilarities must be considered in
some fashion, the court has never given guidance to enforce that principle, leaving it to juries to fashion legal
rules for apportionment.
This lack of guidance has widespread and troubling
consequences. Like the smartphones at issue here, there
are numerous complex, multifunction products and services in diverse industries today. Computers, software,
cars, genetic tests, pharmaceuticals, and biomedical research all feature technologies with numerous components, putting them at risk for liability to numerous
patents and heightening the effects of a failure of apportionment. Furthermore, overreliance on prior licensing
is ripe for abusive exploitation by enterprising patent asserters, since one can easily procure high royalty rates
through carefully constructed contracts, and then use
those artificially high rates to inflate damages computations in litigation. This abuse across multiple industries
likely diminishes valuable innovation; besides being eco2

3
nomically harmful, that is a backward result for a patent
system meant to promote innovation.
II. Certiorari should also be granted on the second
question of whether an intervening unpatentability determination requires reconsideration of a copending infringement determination, among other reasons because
the question is likely to recur in view of an alternate pathway for patent adjudication. Patent owners can seek relief for infringement from an administrative agency called
the U.S. International Trade Commission, and the timeline for disposition of that administrative investigation is
remarkably close to the timeline for an unpatentability
proceeding before the U.S. Patent and Trademark Office.
This confluence of timelines means that races between
infringement and unpatentability proceedings are likely
to occur. Indeed, patent owners can effectively circumvent the congressional scheme for patent reconsideration
by taking advantage of an administrative-agency patent
litigation forum. The unfairness and gamesmanship of
that state of affairs warrants review on certiorari to avoid
it.

ARGUMENT
I.

Certiorari Should Be Granted on the
First Question Presented

This Court’s review is warranted on the question of
apportionment of reasonable royalty analyses based on
prior licenses for at least the following four reasons. First,
the Federal Circuit has consistently failed to articulate
rules on how prior license royalty rates are to be used
at all, let alone are to be apportioned. Second, the question has broad economic importance on a national scale
because it is not confined to the smartphone industry:
Diverse industries also involve complex, multifunction
devices that could become victim to the same problem.
Third, indeterminacy of prior license analysis encourages
patent lawyers to manipulate negotiations in troubling
ways. Finally, the sum total of these problematic consequences of the Federal Circuit’s failure to guide the lower
courts is a concerning disincentive for innovation.
A.

For Decades, the Federal Circuit Has
Failed to Articulate Rules on How to
Apportion Reasonable Royalties Based
on Past Licenses

The problem that the petition identifies in its first
question presented is a long-running one: The Federal
Circuit has repeatedly declined to state a methodology
for applying apportionment in the context of past licenses.
See Bernard Chao, Implementing Apportionment, 2019
Patently-O Pat. L.J. 20, 20 (2019). Without this Court’s
intervention, this lacuna in patent damages law is likely
to persist and plague the district courts for years to come.
4

5
In assessing a reasonable royalty, courts generally
rely on the fifteen factors identified in Georgia-Pacific
Corp. v. U.S. Plywood Corp., 318 F. Supp. 1116 (S.D.N.Y.
1970). Of those, several relate to any “established royalty” for licensing of the patent in suit or “comparable”
patents; another factor relates to apportionment of the
value of the patented invention “distinguished from nonpatented elements.” Id. at 1120 (factors 1–2, 13). Yet
Georgia-Pacific provides no guidance on how the factors
are applied or even how they interrelate; experts and
practitioners complain that the factors are a “grab bag”
that “provides little or no guidance to juries.” Fed. Trade
Comm’n, The Evolving IP Marketplace: Aligning Patent
Notice and Remedies with Competition 182 (2011), available online.2
When considering prior licenses, the Federal Circuit
repeatedly pays lip service to the notion that “use of past
licenses” for computing reasonable royalties “must account for differences in the technologies and economic circumstances of the contracting parties.” Finjan, Inc. v.
Secure Computing Corp., 626 F.3d 1197, 1211 (Fed. Cir.
2010). Yet it provides no guidance on how to account for
those differences, leading to contradictory outcomes. In
2014, the court opined that apportionment “calculated as
some percentage of the value of a multi-component product” was warranted in assessing a reasonable royalty in
cases where prior “licenses based on the value of a multicomponent product are admitted.” Ericsson, Inc. v. DLink Sys., Inc., 773 F.3d 1201, 1227–28 (Fed. Cir. 2014).
Yet in 2015, the same court held apportionment incompatible with prior-license analysis, stating that separat2

Locations of authorities available online are shown in the Table
of Authorities.

6
ing out unpatented components from patented ones “conflicts with our prior approvals of a methodology that values the asserted patent based on comparable licenses.”
Commonwealth Sci. & Indus. Research Org. v. Cisco Sys.,
Inc. (“CSIRO”), 809 F.3d 1295, 1303 (Fed. Cir. 2015).
Nor has the Federal Circuit explained what any apportionment based on prior licenses must look like. In
many cases, the Federal Circuit finds nothing more necessary than for an expert to lay out the past royalty rates
and the differences, leaving the jury to figure out how
to use that information for apportionment or otherwise.
See, e.g., Finjan, 626 F.3d at 1212; ActiveVideo Networks,
Inc. v. Verizon Commc’ns, Inc., 694 F.3d 1312, 1333 (Fed.
Cir. 2012). To be sure, the court has frequently deemed
prior licenses wholly irrelevant or inadmissible3 but generally sets a low bar for similarity sufficient to deem a license admissible. See, e.g., ActiveVideo, 694 F.3d at 1333;
Elbit Sys. Land & C4I Ltd. v. Hughes Network Sys., LLC,
927 F.3d 1292, 1300 (Fed. Cir. 2019); Apple Inc. v. Motorola, Inc., 757 F.3d 1286, 1326 (Fed. Cir. 2014).
The Federal Circuit is not unaware of this lack of
guidance. Ericsson remarked that “a separate instruction culled from Garretson would be preferable in future
cases” but neither required this “preferable” instruction
nor stated what it should look like or how it would apply.
See 773 F.3d at 1228 n.5. And in other contexts, the appeals court has recognized that laying out numbers without sufficient guidance “cannot help but skew the damages horizon for the jury, regardless of the contribution
3

See, e.g., Lucent Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1325–
32 (2009); LaserDynamics, Inc. v. Quanta Comput., Inc., 694 F.3d 51,
77–78 (Fed. Cir. 2012); Wordtech Sys., Inc. v. Integrated Networks
Sols., Inc., 609 F.3d 1308, 1320 (Fed. Cir. 2010).

7
of the patented component to this revenue.” Uniloc USA,
Inc. v. Microsoft Corp., 632 F.3d 1292, 1320 (Fed. Cir.
2011). Yet despite this recognition of the need for clarity in application of apportionment to prior licenses, the
Federal Circuit offers nothing but platitudes.
Commentators similarly agree that prior license royalty rates “are likely to require extensive adjustment before they can be considered fairly comparable” but that
the Georgia-Pacific factors “do not prescribe any particular method for quantifying the appropriate royalty.”
Roy J. Epstein & Alan J. Marcus, Economic Analysis of
the Reasonable Royalty: Simplification and Extension
of the Georgia-Pacific Factors, 85 J. Pat. & Trademark
Off. Soc’y 555, 572 (2003); see Christopher B. Seaman, Reconsidering the Georgia-Pacific Standard for Reasonable
Royalty Patent Damages, 2010 BYU L. Rev. 1661, 1694
(2010) (“[E]mphasis on royalty rates for comparable licenses may conflict with economic reality . . . .”).
The VirnetX, Inc. v. Cisco Systems, Inc. Federal Circuit opinion that preceded the one presently on petition
illustrates all the failures of the Federal Circuit’s indeterminate jurisprudence. Contrary to the brief in opposition
(at 18), the Federal Circuit did not reverse the district
court’s reliance on prior licenses based on apportionment;
instead, the appeals court expressly approved the district
court’s admission of testimony relating prior licenses to
the reasonable royalty rate, with no requirement of apportionment.4 See 767 F.3d 1308, 1330–31 (Fed. Cir. 2014)
(Pet. App. 117–19a). The court first deemed the prior licenses admissible because they did not pertain to “vastly
4

The brief in opposition cites to page 1326 of the opinion
(Pet. App. 108a), which discusses a different legal argument.

8
different situations,” suggesting a wide berth for admissible prior licenses. Id. at 1330 (Pet. App. 118a). The
court then recited that the reasonable royalty determination “must account for differences” between the prior
licenses and the instant case, but again offered no explanation for how to do that accounting. Id. (Pet. App. 117a).
To be sure, the district court then had relied on a different methodology such that apportionment of prior license analysis was not directly at issue in VirnetX, but
the Federal Circuit’s hazy treatment nonetheless reveals
the paucity of clarity in this area of the law.
The brief in opposition (at 17) contends that the Federal Circuit “expressly recognizes the need for apportionment, even where the patentee uses comparable licenses.” Putting aside the case law’s own internal inconsistencies on whether apportionment is required, the appellate court has nevertheless “not identified any kind of
concrete analysis that apportionment requires.” Chao,
supra, at 21. The ambiguity left by that failure is tantamount to ignoring apportionment entirely, since expert
witnesses are free to acknowledge differences but then
summarily wave them away. Certiorari is warranted at
least to resolve this question, which the Federal Circuit
has left unresolved for decades.
B.

Numerous Industries Involve Complex
Multifunction Products and Services
Incompatible with Nonapportionment of
Patent Royalties

Resolving apportionment with respect to priorlicense royalty analysis is important to a wide range of
industries that deal with products and services that aggregate multiple functions and that are thus potentially

9
exposed to numerous unrelated patents. Failure to apportion royalties adequately imposes costs not just on smartphone manufacturers like the petitioner, but on all these
diverse industries.
1.

Computer Devices

Computer devices other than smartphones are often
complex, multifunction devices that could trigger the
same apportionment problems present in this case.
In Cornell University v. Hewlett-Packard Co., the
patent owner sought damages on “entire server and
workstation systems.” 609 F. Supp. 2d 279, 283 (N.D.N.Y.
2009). Yet the patent claimed just “a small part of the [Instruction Reorder Buffer], which is a part of a processor,
which is part of a CPU module, which is part of a ‘brick,’
which is itself only part of the larger server.” Id. Recognizing that the accused systems “include vast amounts
of technology beyond the infringing part of the processors,” Judge Rader of the Federal Circuit (sitting by designation) faulted the lack of apportionment, reducing the
royalty “to account only for the value of the processors
incorporating the patented technology.” Id. at 283, 285;
see also Quanta Comput., Inc. v. LG Elecs., Inc., 553 U.S.
617, 635 (2008) (“[E]ach Intel microprocessor and chipset
practices thousands of individual patents . . . .”).
Cornell does not rely on prior licensing royalties, leaving one to wonder whether the court would have required
apportionment had the patent owner relied on prior licensing information. Cf. CSIRO, 809 F.3d at 1302–03.
By leaving the rules of prior-license apportionment unknown, the Federal Circuit thus invites inflated arguments for reasonable royalties on the entire class of computer devices and systems, such as that in Cornell.

10
2.

Software

Computer software also exhibits the multifunctionality phenomenon. In Lucent Technologies, Inc. v. Gateway, Inc., the patent related to a graphical element for
choosing dates on a calendar; the allegedly infringing software was Microsoft Outlook, “an integrated suite of abilities to do email, to set up contacts, to arrange meetings,
to maintain your personal calendar, et cetera.” 580 F.3d
1301, 1332 (2009). The jury awarded over $357 million
for infringement of this single-feature patent. Given the
“hundreds, if not thousands,” of features in the software,
the Federal Circuit found it “inconceivable” that “the use
of one small feature, the date picker, constitutes a substantial portion of the value of Outlook.” Id. at 1333.
Undeterred by this disproportionality, the patent
owner in Lucent alleged that the lump sum was reasonable in view of supposedly comparable industry licenses.
See id. at 1325–27. The Federal Circuit rejected those
comparable licenses, largely on the technicality that they
were for running royalties rather than lump-sum payments, see id. at 1327,5 but made no suggestion that
it would have considered apportionment had the patent
owner overcome that technical error. Without guidance
on apportionment based on prior licenses, an “inconceivable” award could very well have stood for complex software such as Microsoft Outlook.
3.

Automotive Industry

Many, including this Court, have acknowledged the
multifunctional nature of modern cars. “Automotive sup5

The Federal Circuit rejected other comparable licenses as too far
afield from the patent at issue. See id. at 1328–33.

11
ply chains are among the most complex in the world, with
each vehicle containing more than 20,000 parts originating from thousands of different suppliers.” Shefali Kapadia, Moving Parts: How the Automotive Industry Is
Transforming, Supply Chain Dive (Feb. 20, 2018), available online. Cars today include even software components to perform functions from accessories control to
safety alerts. See Jonathan Bach & Mike Colias, Is It a
Car or a Computer?, Wall St. J. (Sept. 19, 2016), available online. Each of these thousands of components is a
potential subject of patent litigation.
This complexity has driven the automotive industry’s
concerns for cabining the consequences of patent law with
respect to multifunctional technologies. In an amicus curiae brief, two associations noted that “the automobile industry is particularly susceptible to patentees’ extraction
of royalties based on innovations wholly unattributable to
the patentable invention,” wondering whether owners of
mobile phone chip patents “could demand a cut of the profits attributable to even a car’s leather seats.” Brief of Association of Global Automakers et al. at 21–22, Fed. Trade
Comm’n v. Qualcomm Inc., No. 19-16122 (9th Cir. Nov.
29, 2019). And in Impression Products, Inc. v. Lexmark
International, Inc., this Court observed that the “smooth
flow of commerce would sputter if companies that make
the thousands of parts that go into a vehicle could keep
their patent rights after the first sale.” 137 S. Ct. 1523,
1532 (2017).
The automotive industry, like the mobile phone, computer, and software industries, thus has a strong interest
in ensuring that reasonable royalties are properly apportioned.

12
4.

Genetic Testing

The genetic testing industry provides a striking example of how complex, multifunction technologies are not
just the domain of computers and electronics.
Advances in gene sequencing technologies have made
genetic testing an increasingly important and costeffective element of diagnostic health care, by virtue
of testing for multiple genes. A single round of testing might include a panel of hundreds of genes, providing patients with a wealth of potentially lifesaving information all at once. See Dan Vorhaus & John Conley, Whole-Genome Sequencing and Gene Patents Coexist (For Now), Genomics L. Rep. (renamed Privacy Rep.)
(Aug. 11, 2009), available online.
Multi-gene panels make genetic testing a multifunction technology potentially subject to dozens of patents.
Indeed, genetic testing services have repeatedly observed how patenting of individual genes created a
“thicket” that could potentially have stifled the development of the genetic testing industry, since negotiating a
license for each of those many patents would have been
an intractable challenge. Subhashini Chandrasekharan
& Robert Cook-Deegan, Gene Patents and Personalized
Medicine—What Lies Ahead?, 1 Genome Med. 92, 93
(2009).
Gene patent thickets have largely been avoided in
view of Ass’n for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S. 576 (2013). But given technological
changes and recent legislative interest in revisiting this
aspect of patent law,6 it is worth considering how genetic
6

See Paige Winfield Cunningham, The Supreme Court Banned
Patenting Genes. But Congress Might Change That, Wash. Post
(June 3, 2019), available online.

13
testing service royalties might play out in the face of
renewed assertion of patents on genes or similar material. The holder of a patent on a particular gene might
first license the patent to a service offering a 5-gene testing panel, basing its royalty on 20% of the service’s profits. In litigation against a 100-gene panel, that patent
holder might then contend that its prior 20%-based royalty rate should control the reasonable royalty determination. Without rules for apportionment, the court would
have no legal mechanism to avoid this analysis despite the
patented gene constituting only 1% of the 100-gene panel.
The Federal Circuit may thus exaggerate the value of
patents in the genetic testing industry due to the multifunction nature of modern genetic tests.
5.

Pharmaceuticals and Biomedical
Research

Drugs and medical treatments are also frequently
complex, multifunction products potentially subject
to patents on only small components thereof.
In
AstraZeneca AB v. Apotex Corp., the holder of a patent
to omeprazole (Prilosec) sued a generic manufacturer for
infringement damages. See 782 F.3d 1324, 1328 (Fed. Circ.
2015). The patent on the active compound had expired,
and the asserted patent was instead directed to the coating applied to the drug. See id. at 1328–29. The generic
manufacturer thus argued that damages should be based
on the coating, apportioned from the drug itself. See id. at
1337.
Nevertheless, the Federal Circuit rejected apportionment. It first held this Court’s precedent, Garretson v.
Clark, 111 U.S. 120 (1884), inapplicable on the grounds
that the apportionment rule therein (curiously termed

14
the “entire market value rule”) is irrelevant when the
patent recites the entirety of the product, regardless of
which of those recitations were to unpatentable material.
See AstraZeneca AB, 782 F.3d at 1338. It further recognized a need to “determine how to account for the relative
value of the patentee’s invention,” id., but concluded that
since the coating “substantially created the value of the
entire omeprazole product,” there was “no reason to exclude the value of the active ingredient when calculating
damages in this case.” Id. at 1339–40.
This reasoning leads to paradoxes: Should the holders of two separate patents, one on the drug and another
on the coating, both enjoy royalties based on the unapportioned whole, effectively forcing a double recovery?
Problems like these show that the Federal Circuit lacks
a unified, coherent approach to apportionment that could
affect the pharmaceutical industry.
Indeed, the lack of clarity on apportionment would
have widespread impact across the life sciences generally.
In a now-famous article, Professors Heller and Eisenberg recognized that in biomedical research, patents on
small components could stack up and frustrate development of complex technologies—a “tragedy of the anticommons.” See Michael A. Heller & Rebecca S. Eisenberg,
Can Patents Deter Innovation? The Anticommons in
Biomedical Research, 280 Science 698, 698 (1998). Aside
from the gene fragment patent issues discussed above,
Heller and Eisenberg worried that patents on biomedical research tools, many of which would be used in the
course of a single project, would create “a proliferation of
fragmented and overlapping intellectual property rights”
that could “lead paradoxically to fewer useful products
for improving human health.” Id. at 700–01.

15
It is imperative to understand that the present case is
not just about the computer or electronics industries. In
considering the impact of the Federal Circuit’s failure to
manage apportionment of royalties, the effects for health
care, drug prices, and life sciences research are equally if
not more important.
C.

The Federal Circuit’s Decision Exacerbates Ongoing Problems with Abusive
Gamesmanship in Patent Licensing

The Federal Circuit’s practice of accepting preexisting, unapportioned royalty rates is tailor-made for exploitation by patent owners and attorneys hoping to maximize returns on litigation. This is because patent owners can structure their royalty arrangements, perhaps
with the cooperation of licensees, in ways that artificially
inflate future court awards. This troubling and abusive
practice is already occurring today, signaling an urgent
need for this Court’s review.
It is not hard to imagine a “variety of strategies” for
licensing patents at inflated royalty rates to convince a
court of a high reasonable royalty. Erik Hovenkamp &
Jonathan Masur, How Patent Damages Skew Licensing
Markets, 36 Rev. Litig. 379, 406–09 (2017) (cataloging
such strategies). The patent owner could, for example,
recite a high royalty rate but then offer discounts or offsets (or even just forego collecting the royalty) to convince potential licensees to accept that high rate. The
patent owner could also incorporate unrelated value, such
as payments for cross-licenses or past infringement, into
the forward-running payments to produce an apparently
higher-looking rate. See Layne S. Keele, Res“Q”ing
Patent Infringement Damages After Resqnet: The Dan-

16
gers of Litigation Licenses as Evidence of a Reasonable
Royalty, 20 Tex. Intell. Prop. L.J. 181, 228 (2012). See generally John C. Jarosz & Michael J. Chapman, The Hypothetical Negotiation and Reasonable Royalty Damages:
The Tail Wagging the Dog, 16 Stan. Tech. L. Rev. 769, 788
(2013).
Indeed, patent practitioners recommend “structuring
your settlement to reflect a high effective royalty rate
that the patentee can use in pursuing other larger defendants,” a strategy that commentators note “has the
potential to work significant mischief.” Keele, supra,
at 228 (quoting Brian Pandya, Why Pay More? Using Patent Settlements to Calculate Reasonable Royalty
Rates, Corp. Couns. (May 31, 2010), available online).
While the above examples of royalty manipulation require coordination between the patent owner and the licensee, inappropriate royalties can also be set without
such coordination. Licensees often agree to royalty rates
for “[m]any considerations other than the value of the
improvements patented,” such as “transaction costs of
further litigation,” bargaining skill, and degree of risk
aversion. Rude v. Westcott, 130 U.S. 152, 164 (1889);
Evans v. Jeff D., 475 U.S. 717, 734 (1986); Jarosz & Chapman, supra, at 786. The patent owner could also choose
initial licensees based on their likelihood of accepting abnormally high royalty rates, because they have less bargaining power or sell single-function products where a
higher royalty rate is warranted.
In all these cases, the licensee agrees to a higher-thanappropriate royalty rate, which the patent owner can
present to a court as evidence of a supposedly “reasonable” royalty. Indeed, the Federal Circuit has noted that
patent owners could “inflate the reasonable royalty anal-

17
ysis with conveniently selected licenses,” ResQNet.com,
Inc. v. Lansa, Inc., 594 F.3d 860, 872 (Fed. Cir. 2010)
(per curiam), and that “patentees could artificially inflate
the royalty rate by making outrageous offers,” Whitserve,
LLC v. Comput. Packages, Inc., 694 F.3d 10, 30 (Fed. Cir.
2012) (quoting Deere & Co. v. Int’l Harvester Co., 710 F.2d
1551, 1557 (Fed. Cir. 1983)).
Patent owners have engaged in this royalty-inflation
gambit multiple times already. In Microsoft Corp. v. Motorola, Inc., the patent owner sought a royalty rate of
2.25%, supported by several comparable license agreements. See No. 10-cv-1823, slip op. at 130 (W.D. Wash.
Apr. 25, 2013) (findings of fact and conclusions of law),
aff’d, 795 F.3d 1024 (9th Cir. 2015). Each of those supposedly comparable rates, however, showed signs of manipulation. In many cases, the patent owner in fact did
not enforce the royalty rate and only collected nominal
amounts in actual royalties, suggesting that the rate in
the contract was a sham. See id. ¶¶ 418, 453, at 134–35,
145. Furthermore, the royalty agreements were largely
“fashioned under duress of litigation,” rendering the rates
unreliable. Id. ¶ 443, at 142. And it is noteworthy that,
much like the present case the allegedly infringing products were complex, multifunction systems including operating system software and gaming computers, while the
supposedly comparable licensed products included an “obsolete” radio and two children’s toys. Id. ¶ 418, at 135.
Ericsson, Inc. v. InterDigital Communications Corp.,
which involved patent licensing among three mobile communications firms, also shows the propensity to manipulate agreed royalty rates to affect third-party determinations. Ericsson and Nokia entered into a license agreement in which Nokia agreed to pay royalties computed in

18
part based on Ericsson’s other royalty rates. See 418 F.3d
1217, 1219 (Fed. Cir. 2005). Subsequently, Ericsson and
InterDigital settled their ongoing patent litigation, agreeing upon a royalty rate. See id. Nokia then disputed the
royalty rate that it was required to pay in view of the InterDigital settlement, demanding sealed litigation documents in an apparent effort to show that the InterDigital
royalty rate was inappropriate in some way. See id. at
1229. Ultimately, Nokia was unsuccessful and thus presumably bound to the royalty as selected between Ericsson and InterDigital. See id. at 1224.
Transocean Offshore Deepwater Drilling, Inc. v.
Maersk Drilling USA, Inc. further suggests the mechanisms of exploitation of the Federal Circuit’s overreliance
on unapportioned prior licenses. There, the patent owner
presented evidence that its “model license agreement includes an upfront fee of $15 million,” and the jury relied on
that testimony to award the exact same amount in damages. 699 F.3d 1340, 1358 (Fed. Cir. 2012). The patent
owner conceded that it “sometimes discounts that fee,”
but testified that it would have offered the defendant no
such discount. Id.
With no doctrinal mechanism for apportionment of
prior licenses, the Federal Circuit was forced to acquiesce
in the unapportioned award—despite credible protestations that apportionment was warranted7 and the judges’
own admission that they “may well not have awarded
such a high royalty.” Id. Besides demonstrating the
propensity of prior licenses to capture patent value inaccurately, Transocean shows how easily patent owners
7

The model license provided rights to make, use, offer to sell, and
sell the patented invention; the defendant had no need for the rights
to make or use it. See id. at 1357.

19
can manipulate the reasonable royalty analysis, by announcing a “model license agreement” with an exceptionally high base rate, offering discounts on a case-by-case
basis, and then simply testifying that no discount would
be offered to the defendant.
To be sure, in some of these cases, courts did not accept the prior licenses as indicators of a reasonable royalty. That is a coincidental matter of the patent owners’ failure to obfuscate their licensing ploys sufficiently,
and one can only wonder how many times patent owners
have succeeded in this strategy. The manipulability of
prior licenses confirms their unreliability, the error of the
Federal Circuit in crediting them with near-dispositive
weight, and the harms that would befall numerous industries absent this Court’s review.
D. Excessive Royalties Resulting from
Overreliance on Past Licenses Will
Deter Innovation
The ultimate consequence of inappropriately high royalty awards is that innovation will be discouraged, particularly in the many complex industries noted above. This
consequence is both economically regressive and directly
contrary to the very purpose of patent protection.
“When patentees are compensated for more than
their invention is worth,” scholars have recognized “a corresponding disincentive for potential infringers to engage
in beneficial commercial activity.” Brian J. Love, Patentee Overcompensation and the Entire Market Value
Rule, 60 Stan. L. Rev. 263, 279 (2007). For one thing,
increased liability “effectively raises the potential infringer’s marginal cost, which in turn raises the price of
the infringer’s products and reduces its level of output”;

20
the decline in productivity “is a deadweight economic loss
to society.” Id.; see Thomas F. Cotter, Four Principles
for Calculating Reasonable Royalties in Patent Infringement Litigation, 72 Santa Clara Computer & High Tech.
L.J. 725, 737 (2011). Furthermore, higher exposure to
patent infringement “may threaten to over deter wouldbe users from lawfully designing around” patents to avoid
infringement. Cotter, supra, at 737. Design-arounds
are an important wellspring of innovation that ought to
be encouraged, not deterred through excessive royalty
awards. See State Indus., Inc. v. A.O. Smith Corp., 751
F.2d 1226, 1236 (Fed. Cir. 1985); Slimfold Mfg. Co., Inc. v.
Kinkead Indus., Inc., 932 F.2d 1453, 1457 (Fed. Cir. 1991).
Thus, the Federal Trade Commission and others find:
“Overcompensation raises costs through multiple mechanisms and can deter innovation.” Fed. Trade Comm’n,
supra, at 148; Suzanne Michel, Bargaining for RAND
Royalties in the Shadow of Patent Remedies Law, 77
Antitrust L.J. 889, 895 (2011) (“Indeed, inflated damage
awards can discourage innovation by raising the costs of
product development and increasing the risks of investment for other innovators and manufacturers.”) (citing
Carl Shapiro, Patent Reform: Aligning Reward and Contribution, in 8 Innovation Policy and the Economy 111,
113 (Adam B. Jaffe et al. eds., 2007)).
Nonapportionment of reasonable royalties amplifies
this disincentive, particularly with respect to complex,
multifunction products and services. See Love, supra,
at 279. As a manufacturer or firm adds further features
alongside others, the relative value of each feature with
respect to the overall product tends to decrease, so overcompensation resulting from a lack of apportionment is
exacerbated as more features are introduced. This may

21
discourage adding features to products, effectively stifling an important dimension of innovative product development and ultimately restricting consumer choice.
Besides being economically backwards, disincentives
for innovation and adding features to products are contrary to the very aims of the patent system itself. The
Constitution conditions the grant of patents upon the requirement that they “promote the progress of science and
useful arts,” and this Court has recognized that the purpose of patents is to promote the public interest in innovation, not merely to reward inventors with monopolies.
U.S. Const. art. I, § 8, cl. 8; see, e.g., Precision Instrument Mfg. Co. v. Auto. Maint. Mach. Co., 324 U.S. 806,
815–16 (1945). No doubt it is right for an inventor to be
made whole for infringement of a patented invention, but
only to the extent of that invention’s contribution to the
public and not so far as to discourage further innovation
that may be done by others downstream. See Garretson,
111 U.S. at 121. The Federal Circuit’s failure to apportion
royalties to the meritorious contribution of a patent thus
ignores, and indeed contravenes, this age-old purpose of
the patent laws.
II.

Certiorari Should Be Granted on the
Second Question Presented Because the
Question Is Likely to Recur Frequently

In its second question presented, petitioner asks this
Court to vacate a judgment of patent infringement based
on a concurrent determination that the patent was erroneously issued in a proceeding before the U.S. Patent and
Trademark Office. Certiorari should be granted on this
question at least because this question is likely to recur—

22
indeed, the patent owner has almost complete power to
cause it to recur.
When a patent owner seeks redress for infringement,
district court litigation is not the only option. The patent
owner may also file a complaint for an investigation before the U.S. International Trade Commission, an agency
with statutory authority to issue exclusion or cease-anddesist orders enjoining the importation or sale of products determined to infringe patents. See Tariff Act of
1930 § 337(a)(1)(B), 19 U.S.C. § 1337 (2012). The elements of a cause before the ITC differ in relatively minor ways from district court litigation,8 so patent practitioners widely view ITC investigations as an alternate
form of patent litigation before an executive tribunal.
See Colleen Chien, Patently Protectionist? An Empirical Analysis of Patent Cases at the International Trade
Commission, 50 Wm. and Mary L. Rev. 63, 92–95 (2008).
The key advantage of the ITC is speed. Investigations there typically take only 15 to 16 months to complete. See U.S. Int’l Trade Comm’n, Annual Performance
Plan, FY 2019–2020 and Annual Performance Report,
FY 2018, at 9 (2019), available online.
It is that expedited timeline that explains the likelihood of recurrent races between unpatentability and infringement proceedings. A USPTO proceeding for cancellation of a patent has a statutory completion date of
12 to 18 months. 35 U.S.C. § 316(a)(11). Thus, if an ITC
investigation and USPTO proceeding are filed at around
8

In particular, the ITC requires the patent owner to show the
existence of a domestic industry of using the patent in the United
States, and applies statutory public interest factors in lieu of this
Court’s four-factor injunction test under eBay Inc. v. MercExchange,
LLC, 547 U.S. 388 (2006). See Tariff Act § 337(a)(2), (c); Spansion,
Inc. v. Int’l Trade Comm’n, 629 F.3d 1331, 1359 (Fed. Cir. 2010).

23
the same time, they will likely be completed and thus be
ripe for appeal at about the same time. Theoretically,
the ITC could stay its own proceedings until completion
of the USPTO determination, but in practice ITC adjudicators will “almost never stay their investigations.”
Eric J. Fues, The Interplay Between the ITC and the
PTAB—More Progress Needed, Bloomberg L. (Jan. 22,
2019), available online.
As a result, a patent owner can use an ITC investigation to obtain an infringement determination and remedy
potentially before completion of a USPTO cancellation
proceeding. Should this Court not review the Federal Circuit’s refusal to reconsider a patent infringement remedy
after cancellation of a patent, patent owners would have
a simple strategy for obtaining relief on patents even if
those patents are invalid and canceled.
Indeed, patent practitioners already recommend this
ITC timing strategy, even explaining that the “unpredictability” of the timing issue could force a defendant
firm to “design around the patent or settle with the patentee” despite the patent ultimately being deemed erroneous and of no value. Inter Partes Review and the
ITC: The Benefits and Risks of Filing IPR on Patents
Asserted in an ITC Investigation, Quinn Emanuel Bus.
Litig. Rep., Mar. 2015, at 1, 3, available online.
While the petition (at 38) expresses concern about random outcomes due to the “happenstance of docket management,” the reality is far more concerning: Patent owners have a well-defined pathway to circumventing the
congressional scheme for patent challenges by availing
themselves of administrative agency patent litigation before the ITC. Certiorari is warranted to prevent this
gamesmanship.

CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.

Respectfully submitted,
Charles Duan
Counsel of Record
R Street Institute
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amici curiae
February 2020

Rev. 9c9cfd89

24

